             OFFICE OF
      THE INSPECTOR GENERAL

 SOCIAL SECURITY ADMINISTRATION


         CONTRACTOR SECURITY
OF THE SOCIAL SECURITY ADMINISTRATION’S
    HOMELAND SECURITY PRESIDENTIAL
        DIRECTIVE 12 CREDENTIALS

         June 2012   A-14-11-11106



AUDIT REPORT
                                    Mission
By conducting independent and objective audits, evaluations and investigations,
we inspire public confidence in the integrity and security of SSA’s programs and
operations and protect them against fraud, waste and abuse. We provide timely,
useful and reliable information and advice to Administration officials, Congress
and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

   Conduct and supervise independent and objective audits and
    investigations relating to agency programs and operations.
   Promote economy, effectiveness, and efficiency within the agency.
   Prevent and detect fraud, waste, and abuse in agency programs and
    operations.
   Review and make recommendations regarding existing and proposed
    legislation and regulations relating to agency programs and operations.
   Keep the agency head and the Congress fully and currently informed of
    problems in agency programs and operations.

  To ensure objectivity, the IG Act empowers the IG with:

   Independence to determine what reviews to perform.
   Access to all information necessary for the reviews.
   Authority to publish findings and recommendations based on the reviews.

                                     Vision
We strive for continual improvement in SSA’s programs, operations and
management by proactively seeking new ways to prevent and deter fraud, waste
and abuse. We commit to integrity and excellence by supporting an environment
that provides a valuable public service while encouraging employee development
and retention and fostering diversity and innovation.
                                         SOCIAL SECURITY
MEMORANDUM

Date:   June 1, 2012                                                                  Refer To:

To:     The Commissioner

From:   Inspector General

Subject: Contractor Security of the Social Security Administration’s Homeland Security
        Presidential Directive 12 Credentials (A-14-11-11106)


        OBJECTIVE
        The objective of our review was to assess the Social Security Administration’s (SSA)
        contractor process for safeguarding Homeland Security Presidential Directive 12
        (HSPD-12) 1 credentials and the personally identifiable information (PII) 2 contained on
        them.

        BACKGROUND
        HSPD-12 defines a common identification standard for Federal employees and
        contractors. HSPD-12 requires the development and implementation of a mandatory,
        Government-wide standard for secure and reliable forms of identification issued by the
        Federal agencies to their employees and contractors so that they can gain physical
        access to federally controlled facilities or logical access to federally controlled
        information systems. 3

        OMB designated the General Services Administration (GSA) as the executive agent for
        the Government-wide acquisition of information technology products and services
        1
         HSPD-12, Policy for a Common Identification Standard for Federal Employees and Contractors,
        August 27, 2004.
        2
          Office of Management and Budget (OMB) Memorandum M-06-19, Reporting Incidents Involving
        Personally Identifiable Information and Incorporating the Cost for Security in Agency Information
        Technology Investments, July 2006, page 1, defines PII as any information about an individual
        maintained by an agency, including, but not limited to, education, financial transactions, medical history,
        and criminal or employment history and information which can be used to distinguish or trace an
        individual's identity, such as their name, Social Security number, date and place of birth, mother's maiden
        name, biometric records, etc., including any other personal information that is linked or linkable to an
        individual.
        3
            HSPD-12, supra.
Page 2 - The Commissioner


required to implement HSPD-12. 4 When developing blanket purchase agreements for
HSPD-12 products and service acquisitions, GSA is to ensure all approved suppliers
provide products and services that meet all applicable Federal standards and
requirements. 5 Federal agencies and departments are encouraged to use the
acquisition services GSA provides. 6

As the executive agent for HSPD-12 acquisitions, GSA develops a contractual
relationship with the supplier. Federal agencies develop and send Statements of Work
(SoW) 7containing contract requirements to GSA. GSA uses the SoW as a contract to
procure the products and services on behalf of the Federal agencies.

For instance, SSA worked with GSA to contract with a company that provided security
and identity solutions and services based on smart card technologies to create the
HSPD-12 credentials. 8 GSA served as SSA’s contracting officer for the contract the
Agency used to acquire the HSPD-12 credentials. 9

SSA required that the contractor produce the smart cards for SSA’s credentials and
personalize the surface of the credential with the employee or contractor’s full name and
photograph, card’s expiration date, card’s identification number, and issuer’s
identification number. 10 The contractor created the credentials and delivered them to
over 1,600 SSA locations nationwide. In the United States, the contractor has one
facility to manufacture the credentials and another facility to personalize them. (See
Appendix C for detailed description of the credential creation process.)




4
 OMB, M-05-24, Implementation of HSPD-12 -- Policy for a Common Identification Standard for Federal
Employees and Contractors, Attachment A § 5.B, page 8 (August 5, 2005).
5
    Id.
6
    Id.
7
 SSA’s Project Resource Guide glossary defines SoW as a document that outlines the specific supplies
and services the project team wants delivered by a prospective contractor. The content of the SoW
determines the type of contract that is awarded, influences the number and quality of proposals received,
and serves as a baseline against which to evaluate proposals, and later, contractor performance.
8
    GSA Contract Number GS03T09DSC6003, Solicitation Number R3093975, (June 11, 2009).
9
    Id.
10
     SoW, Social Security Administration, SSA PIV II Cards R3093975, Section 2.3.3, page 3.
Page 3 - The Commissioner


The Federal Information Security Management Act of 2002 (FISMA) requires that each
Federal agency provide information security protections for “(i) information collected or
maintained by, or on behalf of, the agency and (ii) information systems used or operated
by an agency or a contractor of an agency or other organization on behalf of an
agency.” 11 Federal agencies must ensure their contractors comply with FISMA and
related policy requirements 12 and include those requirements in contracts and grants. 13
In addition, HSPD-12 guidance 14 requires that Personal Identity Verification 15 (PIV)
service providers use systems that are certified 16 according to Federal security
standards, so all cards are issued by providers whose reliability has been appropriately
accredited. Finally, OMB requires that agencies properly safeguard PII that is accessed
remotely or physically transported outside an agency’s secured, physical perimeter. 17

To achieve our objective, we reviewed the Agency’s contract and visited two contractor
sites to view the contractor’s HSPD-12 credential production, personalization, and
packaging and shipping processes.




11
  Pub. L. No. 107-347, Title III, Section 301 § 3544(a)(1)(A), 44 U.S.C. § 3544(a)(1)(A). FISMA requires
that the head of each agency be responsible for providing protections commensurate with the risk and
magnitude of the harm resulting from unauthorized access, use, disclosure, disruption, modification, or
destruction of such information and systems.
12
  According to OMB M-11-33, FY 2011 Reporting Instructions for the Federal Information Security
Management Act and Agency Privacy Management, Frequently Asked Questions, Question 38, page 14
(September 14, 2011), Federal agencies must ensure their contractors abide by FISMA requirements.
13
     OMB, M-11-33, supra, Frequently Asked Questions, Question 41, page 17.
14
   According to Federal Information Processing Standards Publication (FIPS Pub.) 201-1, Personal
Identity Verification of Federal Employees and Contractors, March 2006, Appendix B, Section B.2, p. 64,
to accomplish the accreditation of PIV service providers and meet compliance with OMB Circular A-130,
App. III, the Information Technology system(s) used by PIV service providers must be certified in
accordance with NIST Special Publication (SP) 800-37, Guide for the Security Certification and
Accreditation of Federal Information Systems.
15
  NIST, SP 800-79-1, Guidelines for the Accreditation of Personal Identity Verification Card Issuers,
Executive Summary, page 1, (June 2008), states that PIV specifications are to be used as a foundation
for securely identifying every individual seeking access to valuable and sensitive Federal resources,
including buildings, information systems, and computer networks.
16
  NIST, SP 800-37 was revised to effectively include the certification and accreditation process as
security authorization. See NIST, SP 800-37, Revision 1, Guide for Applying the Risk Management
Framework to Federal Information Systems: A Security Life Cycle Approach, pages B-1 and B-8
(February 2010).
17
     OMB, M-06-16, Protection of Sensitive Agency Information (June 23, 2006).
Page 4 - The Commissioner


RESULTS OF REVIEW
Our interviews and observations found nothing to indicate the contractor’s HSPD-12
credential manufacturing and personalization process had any physical and logical
security control vulnerabilities 18 used to protect the HSPD-12 credentials and the PII
contained in them. However, we did identify two contractor oversight concerns and two
contract management issues that we want to bring to your attention.

•    Contractor Oversight
     o SSA did not ensure the contractor personnel received appropriate training to
       safeguard Agency PII.
     o The contractor’s information systems were not certified and accredited, as
       required by Federal guidance.
•    Contract Management
     o SSA’s GSA contract did not contain all the appropriate security clauses.
     o The contractor did not have a back-up facility in the United States, as required
       by the contract.
We discussed the contract management issues with SSA management and GSA’s
contracting officer. Based on our discussions, it is unclear which party is responsible for
resolving these issues; therefore, we plan to submit our concerns to GSA’s Office of
Inspector General in a separate memorandum.

SSA DID NOT ENSURE CONTRACTOR PERSONNEL RECEIVED APPROPRIATE
TRAINING TO SAFEGUARD AGENCY PII

SSA did not ensure contractor personnel received appropriate training, such as user
awareness training and training on safeguarding PII. During our review, we identified
three contractor personnel who had regular access to SSA files that contained PII.
When asked, contractor personnel could not identify specific policy or procedures that
should be used in the event of a loss of PII.

Contractor personnel received security training when they are hired and annual
refresher training. However, the majority of the training was on physical security
controls, not PII protection. Although SSA established policies and procedures for PII
protection, it did not ensure the contractor understood its responsibilities to safeguard
PII. Without proper training on the Agency’s policies and procedures, contractor
personnel will not be aware of the expected responsibilities to protect PII, which
unnecessarily places SSA’s data at a higher risk of harm.


18
  The physical control is the implementation of security measures in a defined structure used to deter or
prevent unauthorized access to sensitive material. Examples of physical controls are security guards,
picture identification, and locked/dead-bolted doors. Logical controls are tools used for identification,
authentication, authorization, and accountability in computer information systems.
Page 5 - The Commissioner


Agencies are fully responsible and accountable for ensuring all FISMA and related
policy requirements are implemented and reviewed with relation to contractor
services. 19 Agencies must ensure the contractor implements identical, not "equivalent,"
security procedures. 20 Furthermore, since SSA is a PIV card issuer, 21 it is responsible
for the management and oversight of contractor services. 22 Specifically, the Agency is
responsible for ensuring the contractor personnel receive appropriate training, such as
user awareness training and training on agency policy and procedures. 23

CONTRACTOR’S INFORMATION SYSTEMS WERE NOT CERTIFIED AND
ACCREDITED, AS REQUIRED BY FEDERAL GUIDANCE

SSA did not perform a certification and accreditation (C&A) 24,25 review of the
contractor’s information systems or obtain assurance from GSA or the contractor that an
appropriate C&A had been performed, as required by NIST SP 800-79-1, Guidelines for
the Accreditation of Personal Identity Verification Card Issuers, 26 and FIPS Pub. 201-1,
Personal Identity Verification of Federal Employees and Contractors. 27

Agency officials stated that GSA, as the executive agent appointed by OMB, provided a
certified list of vendors that met all Federal requirements. SSA has accepted this
certification and believes that the vendor has met all the needed FISMA requirements.

It was not apparent that the GSA certification also incorporated FISMA requirements.
To that end, we asked GSA whether it had performed a C&A review on the contractor’s
systems as well as requested any related C&A documentation. To date, GSA has not
provided us any of the requested information.


19
     OMB, M-11-33, supra, Frequently Asked Questions, Question 40, pages 15 and 16.
20
     Id.
21
  According to NIST, SP 800-79-1, supra at page 8, PIV Card Issuer includes all functions required to
produce, issue, and maintain PIV Cards for an organization.
22
     NIST, SP 800-79-1, supra at §2.1, page 8.
23
     OMB, M-11-33, supra, Frequently Asked Questions, Question 40, pages 15 and 16.
24
     FIPS, Pub. 201-1, supra, at Appendix B, Section B.2, page 64.
25
   NIST, SP 800-37, Revision 1, supra at pp. B-1 and B-8, defines the security authorization as “The
official management decision given by a senior organizational official to authorize operation of an
information system and to explicitly accept the risk to organizational operations (including mission,
functions, image, or reputation), organizational assets, individuals, other organizations, and the Nation
based on the implementation of an agreed-upon set of security controls.”
26
 NIST SP 800-79-1 states PIV Card Issuer information systems are certified in accordance with NIST
SP 800-37, Appendix G, page 66.
27
     FIPS, Pub. 201-1, supra, at Appendix B, section B.2, page 64. Also, see Footnote 13.
Page 6 - The Commissioner


FISMA requires that agencies ensure contractors handling Federal information or
operating information systems on the Government’s behalf meet the same security
requirements as Federal agencies. 28 OMB requires that agencies obtain sufficient
assurance that security controls over contractor systems are effectively implemented
and comply with Federal and agency guidelines. 29

The Agency is responsible for ensuring the contractor’s information systems meet
Federal security requirements. Therefore, SSA should have obtained evidence of a
proper C&A review from GSA or the contractor.

As a result of SSA not obtaining the aforementioned evidence, the Agency may not
have been fully aware of the contractor’s risks and whether effective security controls
were implemented at the contractor’s facility. During our discussions with the contractor
personnel, they stated the company had conducted periodic security reviews to meet
other client’s security requirements.

We requested the contractor provide security requirements it deploys when providing
similar services to other clients. Our goal was to compare those requirements to
Federal security standards; however, the contractor could not provide this
documentation because of non-disclosure agreements with other clients. Instead, the
contractor provided documentation that demonstrated how it met the clients’ security
requirements for the past 2 years. Although it appears the contractor met its other
clients’ security requirements, we were unable to determine whether the security
measures deployed by the contractor met Federal security standards. It should be
noted that the contractor’s services to other clients involve sensitive personal
information similar to that of SSA.

We recommend SSA request documentation from GSA that the contractor’s information
systems are certified and accredited as required by Federal requirements. However, if
GSA did not perform a C&A review of the contractor’s information systems, SSA should
seek guidance from OMB to determine which agency is responsible for conducting this
review of the contractor’s information systems.




28
  Pub. L. No. 107-347, Title III, Section 301 §3544(a)(1)(A)(ii). Also, see OMB, M-11-33, supra,
Frequently Asked Questions, Question 40, page 16.
29
   Department of Homeland Security (DHS), FY 2011 Inspector General Federal Information Security
Management Act Reporting , Version 1.0, question 10.a(2) (June 1, 2011). In July 2010, DHS began
exercising primary responsibility within the executive branch for the operational aspects of Federal
cybersecurity with respect to the Federal information systems that fall within FISMA under 44 U.S.C.
§ 3543. DHS provided Fiscal Year (FY) 2011 FISMA reporting instructions to Federal Chief Information
Officers, Inspectors General, and Senior Agency Officials for Privacy. OMB, M-10-28, Clarifying
Cybersecurity Responsibilities and Activities of the Executive Office of the President and the Department
of Homeland Security, pages 1 and 2, July 6, 2010. Also, see M-11-33, supra, page 1.
Page 7 - The Commissioner


CONCLUSION AND RECOMMENDATIONS
Based on our interviews and observations, nothing came to our attention that indicated
the contractor’s card manufacturing and personalization process had any vulnerability in
its physical and logical security controls used to protect the HSPD-12 credentials and
the PII contained on them. However, we did identify some management oversight
concerns that we wanted to bring to your attention to help ensure the continued security
of the Agency’s HSPD-12 credentials. Because of these concerns, we recommend
SSA:

1. Ensure contractor personnel receive appropriate training on Agency’s policies and
   procedures for safeguarding PII.
2. Request documentation from GSA that the contractor’s information systems are
   certified and accredited as required by Federal requirements. However, if GSA did
   not perform a C&A review of the contractor’s information systems, SSA should seek
   guidance from OMB to determine which agency is responsible for conducting this
   review on the contractor’s information systems.

AGENCY COMMENTS AND OIG RESPONSE
SSA agreed with our recommendations. See Appendix D for the Agency’s comments.




                                        Patrick P. O’Carroll, Jr.
                                      Appendices
APPENDIX A – Acronyms
APPENDIX B – Scope and Methodology
APPENDIX C – Homeland Security Presidential Directive 12 Creation Process
APPENDIX D – Agency Comments
APPENDIX E – OIG Contacts and Staff Acknowledgments
                                                     Appendix A

Acronyms
C&A           Certification and Accreditation
DHS           Department of Homeland Security
FIPS PUB.     Federal Information Processing Standards Publication
FISMA         Federal Information Security Management Act of 2002
FY            Fiscal Year
GSA           General Services Administration
HSPD-12       Homeland Security Presidential Directive 12
NIST          National Institute of Standards and Technology
OMB           Office of Management and Budget
PII           Personally Identifiable Information
PIV           Personal Identity Verification
Pub. L. No.   Public Law Number
SoW           Statement of Work
SP            Special Publication
SSA           Social Security Administration
U.S.C.        United States Code
                                                                                     Appendix B

Scope and Methodology
To meet the objectives of our review, we performed the following procedures.

1. Reviewed the General Service Administration’s contract document (Contract
   Number GS03T09DSC6003), Statement of Work, Social Security Administration,
   SSA PIV II Cards, R3093975 to determine whether the Social Security
   Administration (SSA) included all appropriate security and contract clauses in the
   contract.
2. Observed SSA’s process for transferring Agency employee and contractor
   personally identifiable information (PII) 1 to the contractor’s system to determine
   whether the transfer complied with SSA and Federal requirements.
3. Conducted on-site visits of the contractor’s Homeland Security Presidential
   Directive 12 (HSPD-12) credentials production, personalization, and packaging and
   shipping processes at two contractor sites. We observed the creation of the HSPD-
   12 credentials and observed the contractor’s physical and logical security controls
   implemented to protect SSA’s credentials. We visited two of the contractor’s
   facilities: the manufacturing site and the personalization facility in the United States.
   No testing of the contractor’s physical and logical security controls was performed.
4. Compared and assessed the contractor’s process to safeguard PII to relevant
   Federal laws, regulations, standards, and guidelines.
We also reviewed the following.

•   The Privacy Act of 1974, as amended, 5 U.S.C. 552a;
•   The Federal Information Security Management Act of 2002; 44 U.S.C. 3541 et seq.;
•   Office Management and Budget (OMB) Memorandum M-05-24, Implementation of
    HSPD-12--Policy for a Common Identification Standard for Federal Employees and
    Contractors, August 5, 2005; Attachment B HSPD-12, Policy for a Common
    Identification Standard for Federal Employees and Contractors, August 27, 2004;
•   OMB, M-11-33, FY 2011 Reporting Instructions for the Federal Information Security
    Management Act and Agency Privacy Management, September 14, 2011;


1
  OMB, Memorandum M-06-19, Reporting Incidents Involving Personally Identifiable Information and
Incorporating the Cost for Security in Agency Information Technology Investments, July 2006, page 1,
defines PII as any information about an individual maintained by an agency, including, but not limited to,
education, financial transactions, medical history, and criminal or employment history and information
which can be used to distinguish or trace an individual's identity, such as their name, social security
number, date and place of birth, mother's maiden name, biometric records, etc., including any other
personal information which is linked or linkable to an individual.

                                                    B-1
•   OMB, M-07-16, Safeguarding Against and Responding to the Breach of Personally
    Identifiable Information, May 22, 2007;
•   OMB, M-06-16, Protection of Sensitive Agency Information, June 23, 2006;
•   OMB, M-03-22, Office of Management and Budget Guidance for Implementing the
    Privacy Provisions of the E-Government Act of 2002, September 26, 2003;
•   General Services Administration Federal Supply Service Memorandum, Acquisition
    of Products and Services for Implementation of HSPD-12, August 10, 2005;
•   OMB Circular A-130, Management of Federal Information Resources, Appendix III,
    Security of Federal Automated Information Resources, February 8, 1996;
•   Federal Information Processing Standards Publication 201-1, Personal Identity
    Verification of Federal Employees and Contractors, March 2006;
•   National Institute of Standards and Technology (NIST) Special Publication (SP) 800-
    53, Revision 3, Recommended Security Controls of Federal Information Systems
    and Organizations, August 2009;
•   NIST, SP 800-79-1, Guidelines for the Accreditation of Personal Identity Verification
    Card Issuers, June 2008;
•   NIST, SP 800-122, Guide to Protecting the Confidentiality of PII, April 2010; and
•   NIST, SP 800-37, Revision 1, Guide for Applying the Risk Management Framework
    to Federal Information Systems, February 2010.

We performed our fieldwork at SSA’s contractor facilities and Headquarters from June
through September 2011. We conducted this performance audit in accordance with
generally accepted government auditing standards. Those standards require that we
plan and perform the audit to obtain sufficient, appropriate evidence to provide a
reasonable basis for our findings and conclusions based on our audit objectives. We
believe the evidence obtained provides a reasonable basis for our findings and
conclusions based on our audit objectives.




                                           B-2
                                                                                      Appendix C

Homeland Security Presidential Directive -12
Creation Process
As part of the credential creation process, the Social Security Administration (SSA)
electronically transmits data files 1 containing personally identifiable information to the
contractor. The data files are transmitted through an encrypted channel. 2 Once the
contractor receives the data files, the pre-manufactured credential is personalized. In
turn, the contractor ships the credentials via Federal Express to SSA. Once received,
SSA adds additional information 3 to the credential before issuing it to the appropriate
employee or contractor. See the diagram below.




1
 The files contain SSA employee or contractor’s first name, middle initial, last name, card expiration date,
agency affiliation, and photograph.
2
 SSA used Secure Shell to interact with the contractor’s card production system. Secure Shell provides
a secure data communication between two networked computers that connects through a secure
channel.
3
    SSA downloads electronic certificates for authentication purposes onto the credentials.
                  Appendix D


Agency Comments
                                       SOCIAL SECURITY

MEMORANDUM


Date:   May 24, 2012                                                             Refer To: S1J-3

To:     Patrick P. O’Carroll, Jr.
        Inspector General

From:   Dean S. Landis /s/
        Deputy Chief of Staff

Subject: Office of the Inspector General Draft Report, “Contractor Security of the Social Security
        Administration’s Homeland Security Presidential Directive 12 Credentials”
        (A-14-11-11106)—INFORMATION

        Thank you for the opportunity to review the draft report. Please see our attached comments.

        Please let me know if we can be of further assistance. You may direct staff inquiries to
        Amy Thompson at (410) 966-0569.

        Attachment




                                                       D-1
COMMENTS ON THE OFFICE OF THE INSPECTOR GENERAL DRAFT REPORT,
“CONTRACTOR SECURITY OF THE SOCIAL SECURITY ADMINISTRATION’S
HOMELAND SECURITY PRESIDENTIAL DIRECTIVE 12 CREDENTIALS”
(A-14-11-11106)


Recommendation 1

Ensure contractor personnel receive appropriate training on Agency’s policies and procedures for
safeguarding PII.

Response

We agree. We will provide the contractor with appropriate policies and training materials on
safeguarding personally identifiable information.

Recommendation 2

Request documentation from GSA that the contractor’s information systems are certified and
accredited as required by Federal requirements. However, if GSA did not perform a C & A
review of the contractor’s information systems, SSA should seek guidance from OMB to
determine which agency is responsible for conducting this review on the contractor’s information
systems.

Response

We agree.




                                              D-2
                                                                         Appendix E

OIG Contacts and Staff Acknowledgments
OIG Contacts

   Brian Karpe, Director, Information Technology Audit Division

   Grace Chi, Audit Manager

Acknowledgments

In addition to those named above:

   Tina Nevels, Auditor


For additional copies of this report, please visit our Website at http://oig.ssa.gov/ or
contact the Office of the Inspector General’s Public Affairs Staff at (410) 965-4518.
Refer to Common Identification Number A-14-11-11106.
                                 DISTRIBUTION SCHEDULE


Commissioner of Social Security
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Committee on the Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Oversight and Government Reform
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security Pensions and
Family Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
                         Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of an Office of Audit (OA), Office of Investigations
(OI), Office of the Counsel to the Inspector General (OCIG), Office of External Relations (OER), and Office of
Technology and Resource Management (OTRM). To ensure compliance with policies and procedures, internal
controls, and professional standards, the OIG also has a comprehensive Professional Responsibility and Quality
Assurance program.
                                                  Office of Audit
OA conducts financial and performance audits of the Social Security Administration’s (SSA) programs and
operations and makes recommendations to ensure program objectives are achieved effectively and efficiently.
Financial audits assess whether SSA’s financial statements fairly present SSA’s financial position, results of
operations, and cash flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s
programs and operations. OA also conducts short-term management reviews and program evaluations on issues
of concern to SSA, Congress, and the general public.
                                              Office of Investigations
OI conducts investigations related to fraud, waste, abuse, and mismanagement in SSA programs and operations.
This includes wrongdoing by applicants, beneficiaries, contractors, third parties, or SSA employees performing
their official duties. This office serves as liaison to the Department of Justice on all matters relating to the
investigation of SSA programs and personnel. OI also conducts joint investigations with other Federal, State,
and local law enforcement agencies.
                            Office of the Counsel to the Inspector General
OCIG provides independent legal advice and counsel to the IG on various matters, including statutes,
regulations, legislation, and policy directives. OCIG also advises the IG on investigative procedures and
techniques, as well as on legal implications and conclusions to be drawn from audit and investigative material.
Also, OCIG administers the Civil Monetary Penalty program.
                                        Office of External Relations
OER manages OIG’s external and public affairs programs, and serves as the principal advisor on news releases
and in providing information to the various news reporting services. OER develops OIG’s media and public
information policies, directs OIG’s external and public affairs programs, and serves as the primary contact for
those seeking information about OIG. OER prepares OIG publications, speeches, and presentations to internal
and external organizations, and responds to Congressional correspondence.
                           Office of Technology and Resource Management
OTRM supports OIG by providing information management and systems security. OTRM also coordinates
OIG’s budget, procurement, telecommunications, facilities, and human resources. In addition, OTRM is the
focal point for OIG’s strategic planning function, and the development and monitoring of performance
measures. In addition, OTRM receives and assigns for action allegations of criminal and administrative
violations of Social Security laws, identifies fugitives receiving benefit payments from SSA, and provides
technological assistance to investigations.
